                              CLOSEOUT FOR M96040009

        A NSF division director brought this case to OIG's attention' on 3 April 1996.
He had received copies of several letters written by the complainant2to the ~ u b j e c t .In
                                                                                            ~
his letters, the complainant accused the subject and a colleague of two types of citation
errors: (1) citing their own review articles that summarize the ideas of others instead of
citing the original documents, and (2) failing to cite other relevant studies. The
allegations focused on a draft review article that was later published and a previously
published research a r t i ~ l e . ~

        OIG reviewed the complainant's letters and the referenced articles written by the
subject. With regard to the first type of citation error, the complainant listed numerous
occasions when the subject cited his own articles or other review articles rather than
including citations to the original papers. The complainant indicated in his letters that
this practice mislead the non-expert reader into thinking that the cited authors developed
the original concepts. Specifically, the complainant stated that the subject mislead the
reader about who originally characterized a particular molecule. The evidence showed
that the subject knew of the original citations, having cited the original papers in earlier
documents.

        With regard to the second allegation, the complainant suggested that the subject
did not cite certain relevant studies in his articles, thereby, denying researchers of well-
earned credit for their ideas. As one example, the complainant suggested that the subject
should have mentioned the complainant's research in one of the subject's article^.^

         OIG called the complainant to determine the status of his requests for citation
changes and to gather any additional information. He stated that in response to his
letters, the subject had acknowledged his citation errors and made certain changes to the
referenced review article prior to publishing it. These changes included new citations to
the complainant's and other relevant work, and clarifying the scope of citations to the
subject's work. The complainant said that he did not see the need for any other actions,
as his concerns have been addressed. OIG agreed that no additional actions were needed
to evaluate the substance of these allegations, having determined that subject had been
alerted to these issues and had responded, accordingly.



                               [Footnotes redacted]
      This inquiry is closed and no further actions will be taken.

cc:   Scientific Attorney, Integrity, IG
